No. 19-1368
In the

Supreme Court of the United States
WAL-MART STORES, INC., WAL-MART STORES
TEXAS L.L.C., SAM’S EAST, INC., QUALITY
LICENSING CORPORATION,
Petitioners,
v.
TEXAS ALCOHOLIC BEVERAGE COMMISSION,
KEVIN LILLY, IDA CLEMENT STEEN, TEXAS
PACKAGE STORES ASSOCIATION, INC.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

BRIEF IN OPPOSITION
G. A lan Waldrop
Counsel of Record
Ryan D. V. Greene
Terrill & Waldrop
810 West 10th Street
Austin, Texas 78701
(512) 474-9100
awaldrop@terrillwaldrop.com
Counsel for Respondent Texas
Package Stores Association, Inc.
299140

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
This case involves a Texas statute that bars
companies with over 35 owners from selling liquor at
retail.
First, the statute is residence-neutral. There are
out-of-state companies freely participating in Texas’s
retail liquor market. Likewise, there are in-state
companies barred from participating.
Second, liquor is not harmless. Thus, unlike
products such as bicycles or fruit juice, higher sales
are not necessarily a positive for a society or a state.
Third, the statute’s effect is to moderate liquor
consumption. It is uncontroverted that Texas has the
third lowest excise tax on liquor among the 50 states
and yet consistently remains among the 10 lowest states
in per capita liquor consumption. That is the purpose
and effect of the statute here. Texas has chosen to
regulate alcohol sales in a way that allows a higher
beer-and-wine consumption while shifting sales away
from liquor with its higher alcohol content, without
having to implement a high-taxation marketplace.
The question presented is:
Whether a Texas law regulating the sale of liquor
that treats out-of-state retailers the same as in-state
retailers should nonetheless be struck down under the
dormant Commerce Clause simply because it prevents
megacorporations such as Walmart from retailing
liquor at their stores in Texas.

ii
PARTIES TO THE PROCEEDING
Respondents Texas Alcoholic Beverage Commission,
Kevin J. Lilly in his official capacity as Presiding
Officer, and the current Commissioners (collectively,
“TABC”) oversee the licensing of companies that make
in-person retail sales of distilled spirits in Texas.
Respondent Texas Package Stores Association
(“TPSA”) is an association of Texas liquor store owners
that conduct their business in accordance with Texas
Alcoholic Beverage Code chapter 22. Because TPSA
members’ livelihoods depend upon the longstanding
framework established as the law in Texas, TPSA
intervened in this lawsuit.
TABC and TPSA were defendants in the district
court and, on the issue of discriminatory effect under
the dormant Commerce Clause, appellees in the Fifth
Circuit after the district court held that the public
corporation ban did not discriminate facially or by
effect.
Petitioners Wal-Mart Stores, Inc., Wal-Mart Stores
Texas, L.L.C., Sam’s East, Inc., and Quality Licensing
Corporation (collectively, “Walmart”) were the plaintiffs
at the district court.

iii
CORPORATE DISCLOSURE STATEMENT
TPSA has no parent corporation or publicly held
company owning 10% or more of TPSA’s stock.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . i
PARTIES TO THE PROCEEDING .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . ii
CORPORATE DISCLOSURE STATEMENT .  .  .  .  .  . iii
TABLE OF CONTENTS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iv
TABLE OF APPENDICES .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vi
TABLE OF CITED AUTHORITIES .  .  .  .  .  .  .  .  .  .  .  .  . viii
INTRODUCTION .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
STATEMENT OF THE CASE .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
No Equal Protection violation  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
No facial discrimination against out-of-state
firms .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
No discriminatory purpose against out-of-state
firms .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
No improper burden on interstate commerce  .  .  .  .  .  . 7
At issue in the petition: No discriminatory effect .  .  . 8
THIS CASE DOES NOT MERIT SUPREME
COURT REVIEW .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9

v
Table of Contents
Page
I.	 The actual effect of the Texas law is
residence-neutral, and thus this case is
governed by this Court’s Exxon opinion.  .  .  .  .  .  . 9
II.	 The Fifth Circuit’s opinion is consistent with
this Court’s Tennessee Wine opinion.  .  .  .  .  .  .  .  . 15
III.	 This case does not involve a discriminatory
legislative intent.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19
CONCLUSION .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24

vi
TABLE OF APPENDICES
Page
APPENDIX A — EXHIBIT I-38, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BE V ER AGE C OM M I S SION ET A L . ,
C A S E 1 : 1 5 - C V - 0 0 1 3 4 - R P, F I L E D
JUNE 9, 2017 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1a
APPENDIX B — EXHIBIT I-39, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BE V ER AGE C OM M I S SION ET A L . ,
C A S E 1 : 1 5 - C V - 0 0 1 3 4 - R P, F I L E D
JUNE 9, 2017 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2a
APPENDIX C — EXHIBIT I-41, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BE V ER AGE C OM M I S SION ET A L . ,
C A S E 1 : 1 5 - C V - 0 0 1 3 4 - R P, F I L E D
JUNE 9, 2017 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3a
APPENDIX D — EXHIBIT I-43, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BE V ER AGE C OM M I S SION ET A L . ,
C A S E 1 : 1 5 - C V - 0 0 1 3 4 - R P, F I L E D
JUNE 9, 2017 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4a
APPENDIX E — EXHIBIT I-54, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BE V ER AGE C OM M I S SION ET A L . ,
C A S E 1 : 1 5 - C V - 0 0 1 3 4 - R P, F I L E D
JUNE 9, 2017 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5a

vii
TABLE OF APPENDICES
Page
APPENDIX F — EXHIBIT I-72, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BE V ER AGE C OM M I S SION ET A L . ,
C A S E 1 : 1 5 - C V - 0 0 1 3 4 - R P, F I L E D
JUNE 9, 2017 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Abbott v. Perez,
138 S. Ct. 2305 (2018) . . . . . . . . . . . . . . . . . . . . . 23
Allstate Ins. Co. v. Abbott,
495 F.3d 151 (5th Cir. 2007)  . . . . . . . . . . . . . . . . 11
Allstate Ins. Co. v. Abbott,
552 U.S. 1184 (2008) . . . . . . . . . . . . . . . . . . . . . . 11
Churchill Downs Inc. v. Trout,
589 F. App’x 233 (5th Cir. 2014)  . . . . . . . . . . . . . 19
Comptroller of Treasury v. Wynne,
135 S. Ct. 1787 (2015)  . . . . . . . . . . . . . . . . . . . . . 20
Cooper v. McBeath,
11 F.3d 547 (5th Cir. 1994)  . . . . . . . . . . . . . . . . . 23
CTS Corp. v. Dynamics Corp. of Am.,
481 U.S. 69 (1987) . . . . . . . . . . . . . . . . . . . . . . 9, 11
Exxon Corp. v. Maryland,
437 U.S. 117 (1978)  . . . . . . . . . . . . . . . . . . . passim
Gen. Motors Corp. v. Tracy,
519 U.S. 278 (1997)  . . . . . . . . . . . . . . . . . . . . . 9, 19

ix
Cited Authorities
Page
In re Gabriel Inv. Group, Inc.,
Case No. 19-52298-rbk  . . . . . . . . . . . . . . . . . . . . 14
Lindquist v. City of Pasadena,
669 F.3d 225 (5th Cir. 2012) . . . . . . . . . . . . . . . . 14
Maine v. Taylor,
477 U.S. 131 (1986)  . . . . . . . . . . . . . . . . . . . . . . . 22
New Orleans v. Dukes,
427 U.S. 297 (1976) . . . . . . . . . . . . . . . . . . . . . . . 14
Railroad Ret. Bd. v. Fritz,
449 U.S. 166 (1980) . . . . . . . . . . . . . . . . . . . . . . . 20
Rogers v. Frito-Lay, Inc.,
611 F.2d 1074 (5th Cir. 1980) . . . . . . . . . . . . . . . . 22
Tennessee Wine & Spirits Retailers Ass’n v.
Thomas,
139 S. Ct. 2449 (2019) . . . . . . . . . . . . . . . . . passim
Trump v. Hawaii,
138 S. Ct. 2392 (2018) . . . . . . . . . . . . . . . . . . . . . 24
United States v. O’Brien,
391 U.S. 367 (1968) . . . . . . . . . . . . . . . . . . . . . . . 20
Wal-Mart Stores, Inc. v.
Tex. Alcoholic Beverage Comm’n,
945 F.3d 206 (5th Cir. 2019)  . . . . . . . . . . . . passim

x
Cited Authorities
Page
Statutes and Other Authorities
Small Bus. Job Prot. Act of 1996, Pub. L. No.
104-188, § 1301 (1996) . . . . . . . . . . . . . . . . . . . . . 21
Tex. A lco. Bev. Code § 22.16(a) . . . . . . . . . . . . . . . . . 1
Tex. A lco. Bev. Code § 22.16(b) . . . . . . . . . . . . . . 1, 21
Tex. A lco. Bev. Code § 22.16(f)  . . . . . . . . . . . . . . 2, 13

1
INTRODUCTION
The state law at issue in this case has no
discriminatory effect against out-of-state interests. The
record evidence below was conclusive that the Texas
law does not interfere with the flow of interstate goods
or place added costs upon them, nor does it distinguish
between in-state and out-of-state companies. This Court
should deny review.
In Texas, retail sales of liquor (as opposed to beer
and wine) for off-premises consumption occur only in
“package stores,” and require a “P permit” issued by
TABC for each location. See Wal-Mart Stores, Inc. v.
Tex. Alcoholic Beverage Comm’n, 945 F.3d 206, 211
(5th Cir. 2019).
Walmart’s petition for writ of certiorari involves a
single Texas statute. Texas Alcoholic Beverage Code
section 22.16 bars a company from holding a P permit
if it has more than 35 owners or is publicly traded (the
“public corporation ban”). See Tex. A lco. Bev. Code
§ 22.16(a)-(b). This bar applies equally to in-state and
out-of-state retailers.
In its petition, Walmart repeatedly claims that
98% of Texas package store companies are in-state.
That statistic is meaningless absent a comparator to
demonstrate that 98% is disproportionately high. What
neither Walmart nor the district court mentioned is that
Walmart’s own evidence indicated over 99% of beerand-wine retailers are in-state entities—in the complete
absence of a public corporation ban. The 98% statistic
in this case demonstrates nothing about discriminatory

2
effect as between in-state and out-of-state companies
without some showing that it is higher than it would
be without the statutory ban and, thus, is irrelevant
to the issue of discriminatory effect.
Similarly, in its petition, Walmart repeatedly
observes that the public corporation ban has a
grandfather clause, see id. § 22.16(f), but never alerts
this Court to any factual details about that clause
that are in the record. It turns out that at most 2 out
of 2,532 total retail stores in the entire state of Texas
are owned by a grandfathered company from 1995.
The grandfather clause has no real-world impact on
the Texas liquor market.
What, then, is the actual purpose of the public
corporation ban? Section 22.16 is a uniquely-effective
method of regulating liquor sales and controlling
the negative externalities associated with liquor
consumption. The result of Texas’s chosen means of
regulating liquor sales is that Texas has the unique
combination of having the third lowest excise tax among
the 50 states and yet consistently remaining among the
10 states with the lowest per capita liquor consumption
in the country. App.1.1
Meanwhile, Texas allows beer-and-wine retailers
(holding a “BQ permit” for each location) to be public
corporations. Thus, Texas has chosen to regulate
1. The slight increase in per capita liquor consumption
over the past two decades, App.3, is not a Texas issue, but is
the result of nationwide trends, App.5. Texas has maintained
its low ranking among the 50 states in per capita liquor
consumption. App.2.

3
alcohol sales in a way that allows a higher per capita
beer-and-wine consumption while shifting sales—and
thus consumption—away from liquor with its much
higher alcohol content. App.3. As of 2016, there were
over a dozen beer-and-wine retailers in Texas holding
hundreds of BQ permits each—e.g., Dollar General (908
permits), Walgreens (647 permits), and Walmart (605
permits). App.4. Only one liquor retailer in Texas holds
over 100 P permits—Spec’s (160 permits). Id.
The historical results of Texas’s disparate treatment
of liquor retailers versus beer-and-wine-only retailers
are uncontroverted. As the number of beer-and-wine
outlets in Texas increased, per capita beer-and-wine
consumption increased, while as the number of package
(liquor) stores remained relatively constant across
Texas, so did per capita liquor consumption. App.3.
In fact, the evidence also shows a direct correlation
between Walmart’s participation in a state’s liquor
marketplace and per capita consumption in that state.
Walmart itself divided the states into categories defined
by its participation in each state’s alcohol marketplace.
In response, TPSA had its experts examine consumption
levels and drunk driving levels in those states. The
numbers were illuminating: as Walmart’s presence
in an alcohol market increased, the lowering of prices
and increase in purchasing convenience for consumers
corresponded to an increase in per capita alcohol
consumption, along with the negative externality of
drunk driving. App.6. Texas’s higher per capita total
alcohol consumption is consistent with Walmart’s strong

4
presence in the beer-and-wine marketplace;2 but Texas’s
lower per capita liquor consumption is consistent with
the exclusion of very large companies like Walmart (as
well as large Texas-based public corporations) from the
Texas liquor marketplace. Id.
That is the background of Texas A lcoholic
Beverage Code section 22.16. This statute is not
economic protectionism. On the contrary, the statute
acts to reduce per capita consumption of liquor, while
simultaneously ensuring that small businesses in small
towns throughout Texas can survive in the marketplace
without having to compete with large corporations,
regardless of their domicile.
The logic is straightforward. The more owners a
retailer has, the more likely the retailer has sufficient
access to capital to expand more rapidly and dominate
more readily, and the more likely it will have more
outlets, and the more likely it will have economies of
scale so as to offer lower prices, and the more likely it will
have economies of scope so as to increase convenience
for consumers, and the more likely it will have a more
efficient business model that can drive increased sales
and increased consumption as well as drive smaller
competitors out of business. These are basic economic
principles—and were all supported by record evidence.
Thus, by excluding public corporations—both in-state
and out-of-state—from the retail liquor market, Texas
has successfully moderated per capita consumption of
liquor within its state. This has the direct public benefit
2. Walmart is the number one seller of beer and wine in
Texas.

5
of mitigating the negative externalities of high liquor
consumption in the State.
Accordingly, this case does not present an issue
worthy of review by this Court. There is no economic
protectionism here. Instead, Texas has chosen to employ
a residence-neutral, non-taxation-based approach to
moderating per capita liquor consumption in its state.
Texas’s unique approach is fair, and it works.
STATEMENT OF THE CASE
The only holding below challenged by Walmart
is whether section 22.16 (the public corporation ban)
discriminates “in effect” for purposes of a Commerce
Clause challenge. To properly consider this state
statute and Walmart’s challenge thereto, it is helpful
to start with the holdings below that Walmart does not
challenge before this Court.
No Equal Protection violation
Both the district court and the Fifth Circuit
correctly held that section 22.16 does not violate the
Equal Protection Clause, because the statute has a
rational relationship to legitimate state interests.
Excluding public corporations helps keep liquor prices
higher, reduce the convenience of one-stop shopping,
and lower the number of outlets selling liquor. As a
matter of economics, these factors lower per capita
liquor consumption, which, as a matter of public health,
lowers the negative externalities of liquor availability
and consumption—such as cancer, drunk driving, and
child abuse. See Wal-Mart, 945 F.3d at 224-26.

6
No facial discrimination against out-of-state
firms
Turning to the dormant Commerce Clause, both the
district court and the Fifth Circuit correctly held that
section 22.16 does not facially discriminate against outof-state retailers. Section 22.16 by its plain language is
residence-neutral. It does not matter where a company
is located. If that company is a public corporation, it
cannot sell liquor, even if it is domiciled in Texas. If that
company is not a public corporation, it can sell liquor,
even if it is domiciled outside Texas. See id. at 214.
No discriminatory purpose against out-of-state
firms
While the district court erroneously held that
section 22.16 discriminated by its purpose, based on
the Texas Legislature supposedly having an intent to
discriminate against out-of-state firms when it enacted
section 22.16 in 1995, the Fifth Circuit correctly
reversed that finding. As the drafter of section 22.16
testified at trial:
Q. But that’s the real reason TPSA went to all
this trouble to draft this bill, to make sure that
the owners of package stores remained Texas
residents, right?
A. No. Actually, exactly the opposite…. [W]e
said, okay, what’s really happening here? The
residency law has accidentally prevented huge
megastores from putting our mom-and-pop
small businesses out of the business. Now, is

7
there a way that we can accomplish the same
thing that does not discriminate between …
in-state and out-of-state owners.
ROA.10819:19 – 10820:5.
The whole point of section 22.16 —from its
inception—was to create categories that lacked any
purpose or effect of treating similarly-situated instate and out-of-state firms differently. According to
the legislation’s drafter, “that was my assignment,
something that didn’t touch in-state, out-of-state
ownership top[,] side[,] or bottom.” ROA.10825:4-16.
Because the district court relied on improper evidence
to find a discriminatory intent, and ignored the
proper evidence for such an analysis, the Fifth Circuit
concluded the appropriate action was to remand the
discriminatory purpose issue for reconsideration by
the district court. See Wal-Mart, 945 F.3d at 214-18.
No improper burden on interstate commerce
Next, while the district court erroneously held
that section 22.16 failed the Pike balancing test,
the Fifth Circuit correctly reversed on that point as
well. Section 22.16 does not interfere with the flow of
interstate goods. Moreover, Walmart failed to introduce
any record evidence of any barriers or additional costs
placed on interstate firms as compared to in-state
firms, or any record evidence that in-state firms had
any competitive advantage over out-of-state firms. In
fact, during the entire five-day trial, Walmart did not
even mention any “excessive,” “outweighing,” or “lesser”
burdens. Walmart had failed to put on any evidence to

8
support a Pike analysis or overturn the statute based
on Pike, and the district court’s self-generated holding
that section 22.16 violated Pike was reversed in full.
See id. at 221-24.
At issue in the petition: No discriminatory effect
The only remaining issue, then, is whether section
22.16 discriminates against out-of-state companies
by effect. The fundamental problem with this claim,
however, is that Walmart had to do more than simply
say the statute was discriminatory. Walmart had to
prove it. Walmart failed to do so. Instead, what the
trial evidence showed is that this case falls squarely
within this Court’s opinion in Exxon. A statute which
distinguishes among types of retailers, in a residenceneutral fashion, does not run afoul of the dormant
Commerce Clause. See Exxon Corp. v. Maryland, 437
U.S. 117, 125-26 (1978).
The Fifth Circuit correctly affirmed the district
court’s holding that section 22.16 does not discriminate
by effect. See Wal-Mart, 945 F.3d at 218-21. The
evidence is undisputed that both in-state and out-ofstate retailers (not public corporations) hold P permits
and freely participate in the Texas retail liquor market,
while there are both in-state and out-of-state retailers
(public corporations) barred from doing so. Section
22.16’s effect—not just the face of the statute—is, in
reality, residence-neutral, treating in-state and out-ofstate retailers identically, and successfully moderating
the consumption of high alcohol content liquor in Texas.
This Court should deny review.

9
THIS CASE DOES NOT MERIT
SUPREME COURT REVIEW
This case is unsuited for review by this Court.
On the relevant issue of discriminatory effect under
the Commerce Clause, the Fifth Circuit below strictly
adhered to this Court’s precedent in Exxon.
I. The actual effect of the Texas law is residenceneutral, and thus this case is governed by this
Court’s Exxon opinion.
This Court in Exxon rejected the notion that the
Commerce Clause protects the particular structure or
methods of operation in a retail market. See Exxon, 437
U.S. at 127. It is immaterial that a state law’s burden
falls on some interstate companies such as Walmart, so
long as the state law does not “distinguish between instate and out-of-state companies in the retail market.”
See id. at 126.
This Court has frequently cited Exxon with
approval, and returned to this specific issue 9 years
later. In CTS Corp. v. Dynamics Corp. of Am., the
plaintiff insisted that the challenged state statute
“will apply most often to out-of-state entities.” See 481
U.S. 69, 87-88 (1987). Even if true, that was irrelevant
according to this Court because the state statute’s
effect was identical for an interstate business as it
was to a “similarly situated” local business. See id. at
88; see also Gen. Motors Corp. v. Tracy, 519 U.S. 278,
298 (1997) (“Conceptually, of course, any notion of
discrimination assumes a comparison of substantially
similar entities.”).

10
The same holding applies here. Walmart’s own
expert witness testified regarding section 22.16:
Q. All right. So I want to get this clear. We can
agree, you and I, Mr. Elzinga, that under
Section 22.16 of the Texas Alcoholic Beverage
Code similarly situated in-state and out-ofstate business types are treated identically,
correct?
A. The answer is yes.
ROA.10314:6-11.
Section 22.16 is residence-neutral. The evidence is
undisputed that there were in-state public corporations
that could enter the Texas retail liquor market except
that they are barred by section 22.16 from holding
a P permit.3 The evidence is also undisputed that
there are out-of-state residents that hold P permits—
including Total Wine and More, which is an out-ofstate firm located in Maryland but as of the trial date
was the sixth largest firm in the Texas liquor market.
ROA.13735.
Walmart—and every other non-Texas-based
retailer in the United States—would be in the exact
same position if it were incorporated, domiciled, and
located entirely inside Texas.

3. These included supermarket chain Whole Foods,
convenience store chain 7-Eleven, and HEB (the largest grocery
store chain in Texas).

11
The Fifth Circuit has consistently adhered to this
Court’s analysis in Exxon and CTS Corp. See Allstate
Ins. Co. v. Abbott, 495 F.3d 151, 163 (5th Cir. 2007) (“A
state statute impermissibly discriminates only when
it discriminates between similarly situated in-state
and out-of-state interests.”). Indeed, this Court denied
Allstate’s petition for writ of certiorari. See Allstate Ins.
Co. v. Abbott, 552 U.S. 1184 (2008). Walmart’s petition
should likewise be denied.
Walmart and its amici’s briefing incorrectly assert
that the courts below analyzed solely whether section
22.16 discriminated on its face. On the contrary, the
courts below asked whether section 22.16 discriminated
against out-of-state interests “in reality.” The answer
was “no.” Section 22.16 does not have a different
effect on out-of-state retailers than it does on in-state
retailers.
Walmart touts the district court’s misleading
observation that “98% of Texas package stores and
Texas package store companies are 100% Texas-owned.”
It is true that TABC’s evidence showed that 40 out of
the 1,765 P permit holders have out-of-state ownership,
and this equates to 2.27%. However, Walmart fails to
inform this Court that it put on no evidence of a control
group, to discern whether that out-of-state percentage
would be higher in the absence of section 22.16. The
closest to a control group in the record is BQ permits
(Texas beer-and-wine retailers). There is no Texas bar
to public corporations holding BQ permits. The record
below showed 9,009 BQ permit holders, and thus there
would need to be more than 204 (2.27% of 9,009) out-ofstate BQ permit holders for even a possibility of arguing

12
section 22.16 creates a disparate impact. Yet, Walmart’s
evidence revealed only 15 BQ permit holders (0.17% of
9,009) with out-of-state ownership.4
This record evidence is not just compelling, it is
dispositive of the lack of significance of a bare assertion
that the 98% figure (which forms the backbone of
Walmart’s plea to this Court) is meaningful. Under
Walmart’s evidence, the Texas liquor retail marketplace
with its public corporation ban has a greater out-ofstate percentage of companies (2.27%) than the Texas
beer and wine marketplace with no public corporation
ban (0.17%). Walmart did not show any discriminatory
effect against out-of-state retailers. The 98% figure,
standing alone, demonstrates nothing about a
discriminatory effect. In fact, the record evidence that
is available shows out-of-state firms participating in the
Texas liquor market at a greater number than those
participating in the beer-and-wine market without a
public corporation ban.
As the Fifth Circuit observed after discussing the
district court’s “98%” statistic, Walmart had a “fair
opportunity to prove their claim and they failed to do
so.” See Wal-Mart, 945 F.3d at 224.
This case is directly governed by Exxon. Just as
in Exxon, section 22.16 “does not prohibit the flow
of interstate goods, place added costs upon them, or
4. Those 15 companies are: (1) variety stores Walmart,
Target, Costco, Dollar General, and Family Dollar; (2) grocery
stores Kroger, Albertsons/Randalls, Winco, Aldi, and Trader
Joes; (3) pharmacies Walgreens and CVS; and (4) convenience
stores Circle K, Quiktrip, and Racetrac. ROA.14281-86.

13
distinguish between in-state and out-of-state companies
in the retail market.” See Exxon, 437 U.S. at 126.
Also, just as in Exxon, section 22.16 cannot be found
discriminatory by effect simply because it “causes
some business to shift from one interstate supplier to
another.” See id. at 127. That is certainly the case here,
as Walmart identified only 28 out-of-state companies
potentially excluded by the public corporation ban,5
while the evidence showed as many as 40 out-of-state
companies able to compete in the Texas retail liquor
marketplace in the absence of the public corporations’
presence in the market. ROA.12075, 83.
Walmart also complains of section 22.16 ’s
grandfather clause. Section 22.16, enacted in May
1995, has an exception for firms that had already
applied for a P permit as of April 28, 1995. See Tex.
A lco. Bev. Code § 22.16(f). Notably, Walmart declines
to share any details about that clause. Walmart (and
its supporting amici) wants this Court to assume there
are hundreds of Texas public corporations operating
and thriving under this grandfather clause, thereby
suggesting the public corporation ban was a ruse
to protect Texas public corporations. In reality, the
grandfathered companies comprise only 2 out of 1,765
total companies—both of which are controlled by the
same family—together holding only 2 out of 2,532
total P permits. ROA.10705:23 – 10706:1. That is only
5. Walmart’s expert witness admitted he had no
knowledge whether 17 of his selected 28 firms actually were
“public corporations” under section 22.16 because he did not
know their ownership numbers. ROA.14286. Thus, the real
number of excluded out-of-state retailers may be as low as 11,
compared to 1,765 retailers holding P permits.

14
2 stores in the entire state of Texas. The grandfather
clause is not evidence of Texas being “protectionist”
and “discriminatory,” or somehow protecting Texas
public corporations at the expense of out-of-state public
corporations.
Section 22.16’s two-store grandfather clause was
not part of the overall intent for the public corporation
ban in 1995, but was added solely due to the lobbying
efforts of an individual owner of Gabriel’s Wine and
Spirits (operating in San Antonio). ROA.10829:13-25.
Thus, the two grandfathered firms (and locations) are
Gabriel’s companies, and their impact on the Texas
liquor retail marketplace is essentially nonexistent6 —
and consistent with a residence-neutral intent to
exclude only the largest of companies.
In any event, such a two-store grandfather clause
would not render an otherwise constitutional statute
void. See New Orleans v. Dukes, 427 U.S. 297, 305
(1976) (grandfather clause causing only recent entrants
to be barred “is not constitutionally impermissible”);
Lindquist v. City of Pasadena, 669 F.3d 225, 236 (5th
Cir. 2012) (finding it rational to address perceived
ill by only preventing new entrants). At worst, the
grandfather clause itself could be struck down (its
effect is of little consequence), but Walmart does not
seek that relief.
The Fifth Circuit has consistently adhered to this
Court’s Commerce Clause jurisprudence as set forth
6. Gabriel’s has since filed for bankruptcy. See In re
Gabriel Inv. Group, Inc., Case No. 19-52298-rbk.

15
in Exxon. Discrimination is not shown by a barrier to
out-of-state firms if that identical barrier applies to
similarly-situated in-state firms. Thus, this case does
not merit Supreme Court review.
II. The Fifth Circuit’s opinion is consistent with
this Court’s Tennessee Wine opinion.
The holding below does not conflict with this
Court’s Tennessee Wine opinion. In Tennessee Wine,
the state statute at issue imposed a two-year residency
requirement and thus facially discriminated against
out-of-state economic interests. See Tennessee Wine &
Spirits Retailers Ass’n v. Thomas, 139 S. Ct. 2449, 246162 (2019). The question in Tennessee Wine was whether
the Twenty-First Amendment nonetheless saved that
discriminatory state law. See id. at 2462-76.
Here, in contrast, section 22.16 is not, and has not
been held to be, discriminatory. It is not discriminatory
on its face, and as discussed above, it does not
discriminate in its effects.
Thus, the issue of “predominant effect” does not
come into play here. See id. at 2474 (holding that a
discriminatory state alcohol law can be sustained if
predominant effect is protection of public health or
safety). If a non-alcohol-related state law cannot be
struck down because it is not “discriminatory,” then
certainly the Twenty-First Amendment would not
intervene to reduce such state rights in the alcohol
context by calling the law “protectionist.”

16
Moreover, unlike in Tennessee Wine where the
parties defending the statute failed to show the statute
was anything but economic protectionism, here the
statute’s effect has been tried and has been shown to
be reduced consumption of liquor.
It is undisputed that alcohol consumption can be
reduced by raising prices, reducing accessibility, or
reducing convenience—all three of which section 22.16
accomplishes. The more owners a retailer has, the
more likely the retailer has sufficient access to capital
to expand more rapidly and dominate more readily,7
and the more likely it will have more outlets,8 and the
more likely it will have economies of scale so as to offer
lower prices and economies of scope so as to increase
convenience for consumers,9 and the more likely it will
7. Amicus Retail Litigation Center posited that there is
no difference between public corporations and private retailers.
See Amicus Br. of Retail Litig. Ctr., at p. 5. Amicus Chamber
of Commerce succinctly explained the critical difference: public
corporations “can readily access capital through the Nation’s
public securities markets.” See Amicus Br. of Chamber of
Commerce, at p. 5.
8. There are 2,532 total retail outlets selling liquor in
Texas. The largest four BQ permit holders alone sell beer and
wine from more retail outlets in Texas than that. App.4.
9. The Retail Litigation Center agrees, boasting to this
Court that if public corporations can sell liquor in Texas, liquor
prices will drop, and liquor availability will be “enhanced.”
See Amicus Br. of Retail Litig. Ctr., at p. 14. The Chamber
of Commerce also agrees, promising that public corporations
would “unleash their scaled-up capital” to sell liquor to
Texans “efficiently and cheaply.” See Amicus Br. of Chamber
of Commerce, at p. 16.

17
have a more efficient business model that can drive its
smaller competitors out of business. Indeed, Walmart’s
live pleadings affirmatively assert that section 22.16
“negatively impacts Texas consumers, who are forced
to pay non-competitive prices because fair competition
is prevented.” ROA.72; see Wal-Mart, 945 F.3d at 225.
The result of Texas’s chosen means of regulating
liquor sales is that Texas has the third lowest excise
tax among the 50 states and yet consistently remains
among the 10 states with the lowest per capita
liquor consumption in the country. App.2. Texas has
accomplished a remarkable feat of low excise taxes
matched with low per capita consumption.
In response, Walmart’s expert witness offered
no opinion on the cause for Texas’s lowered liquor
consumption. Walmart’s representative testified that
both Texas and Oklahoma prohibit Walmart from
selling liquor and that Arkansas allows only one
Walmart store to sell liquor, see ROA.10045:22 –
10046:15, and the evidence showed that among the
states which do not run a state monopoly for liquor
sales, those three states are the three lowest states in
the country in per capita liquor consumption, see App.1.
As the Fifth Circuit observed: “Walmart does
not dispute that Texas has a legitimate interest in
regulating the consumption of liquor and limiting the
effects of liquor-related externalities.” See Wal-Mart,
945 F.3d at 225. According to the record evidence,
those externalities include liver disease, heart disease,
strokes, and cancer, as well as drinking and driving,
child and spousal abuse, homicides, and suicides.
Under Tennessee Wine, Texas has “leeway to enact the

18
measures that its citizens believe are appropriate to
address the public health and safety effects of alcohol
use.” See Tennessee Wine, 139 S. Ct. at 2474.
In short, Walmart’s insistence to this Court that
section 22.16 is “unalloyed protectionism” is inconsistent
with reality and the record after a full trial.
Walmart’s remaining attacks on the Fifth Circuit’s
opinion below rely on misconstruing that opinion’s
footnote commentary. Seven times in its petition
Walmart quotes the Fifth Circuit’s observation that
“an obvious and significant barrier against out-of-state
economic actors,” under Exxon, might not evidence
discrimination against the Commerce Clause. See
Wal-Mart, 945 F.3d at 218 n.11. The reason for this
statement, in its context, is the recognition that the
exact same “obvious and significant barrier” applies
equally to in-state economic actors. See Exxon, 437
U.S. at 126 (finding no discrimination where law does
not “distinguish between in-state and out-of-state
companies in the retail market”). In other words, under
Exxon, the magnitude of a barrier against out-of-state
interests is irrelevant so long as the very same barrier
is present against in-state interests.
The proof is in dry counties. In Texas, today, there
are still counties that do not allow liquor sales at all.
That is the most “obvious and significant barrier”
against out-of-state liquor retailers possible. Yet, there
is no Commerce Clause violation, because in-state
retailers cannot sell liquor in those counties either.

19
Further proof lies in “alcohol beverage control”
states, which run a state monopoly on retail liquor
sales. There are over a dozen such states. App.1. This
“obvious and significant barrier” keeps all out-of-state
companies from selling liquor, but there is no Commerce
Clause violation, because in-state private retailers
cannot sell liquor in those states either.
Three times in its petition Walmart quotes the
Fifth Circuit’s observation that “jurisprudence in the
area of the dormant Commerce Clause is, quite simply,
a mess,” as if the Fifth Circuit were disparaging this
Court, when the opposite is true. See Wal-Mart, 945
F.3d at 220 n.21. In actuality, the Fifth Circuit was
referencing this Court’s own observations—“The
Supreme Court has acknowledged the muddled state
of its dormant Commerce Clause jurisprudence.” See
Churchill Downs Inc. v. Trout, 589 F. App’x 233, 235
(5th Cir. 2014) (citing Gen. Motors Corp., 519 U.S. at 298
n.12). The Fifth Circuit plainly respected this Court’s
jurisprudence, by religiously following this Court’s
Exxon and Tennessee Wine opinions.
No aspect of the Fifth Circuit’s opinion contradicts
this Court’s recent Tennessee Wine opinion—nor any
other opinion of this Court. There is no reason to grant
review.
III. This case does not involve a discriminatory
legislative intent.
Walmart devotes a significant portion of its brief to
insisting the Texas Legislature had a discriminatory
“purpose” when it enacted section 22.16. That is not

20
before this Court, because the petition relies solely
on discriminatory effect, and the discriminatoryintent issue has been remanded to the district court.10
Nonetheless, it is worth detailing how Walmart’s
allegations on this point are baseless.
The fact is there was no legislative intent to
discriminate against out-of-state companies. This
fact was demonstrated at trial. Both Walmart and
the district court ignored the Texas Legislature’s own
formal legislative history of the 1995 law, which stated
that the public corporation ban would “prevent the
take over of the package liquor store market by large
corporations.” ROA.14580. In other words, the Texas
Legislature expressed its concern as one of company
size, not company domicile. There is not one mention in
the entire legislative history of section 22.16 hindering
out-of-state interests or benefiting in-state interests.
That comports with the statute’s text. See Railroad
Ret. Bd. v. Fritz, 449 U.S. 166, 179 (1980) (“[W]e have
10. Of course, a statute which does not actually
discriminate—whether facially or by effect—could not be
held unconstitutional based on legislators’ purported motives
alone. See Comptroller of Treasury v. Wynne, 135 S. Ct. 1787,
1801 n.4 (2015); United States v. O’Brien, 391 U.S. 367, 382-84
(1968). Otherwise, two states could pass identical statutes that
accomplish identical nondiscriminatory objectives and yet a
federal court could strike down one of those laws by concluding
its state’s legislature acted with discriminatory intent even
though no discrimination was actually accomplished. But the
issue of whether there was discriminatory purpose by the
Texas Legislature in 1995 is on remand, and is not before this
Court here.

21
historically assumed that Congress intended what it
enacted.”). Section 22.16 distinguishes between large
and small companies—based on whether more than
35 persons hold an ownership interest. See Tex. A lco.
Bev. Code § 22.16(b). In doing so, Texas borrowed
from federal tax law, because in 1995 a “closely held
corporation” had less than 35 shareholders and no
shares listed on a public stock exchange. See Small
Bus. Job Prot. Act of 1996, Pub. L. No. 104-188, § 1301
(1996) (increasing Subchapter S shareholder cap from
35 to 75).
In its petition, Walmart declares that the state
law’s sponsoring senator “acknowledged” on the Senate
floor that section 22.16 was designed to protect in-state
retailers. The Fifth Circuit explained in its opinion
why that characterization of the individual senator’s
remarks is simply wrong. See Wal-Mart, 945 F.3d at
215-16. First, the senator observed that a package store
could not be “inside a Walmart.” See id. But that says
nothing about Walmart being an out-of-state company.
Second, the senator discussed having “somebody from
Texas” to “get ahold of.” But, in context, he was referring
to the old residency rules, not section 22.16. See id.
Third, both Walmart and the district court ignored
the senator’s closing statement, that section 22.16
was not a bill intended to “keep[] foreign ownership
from coming in and getting licensed.” See id.11 The
district court ignored all the express statements of
non-discriminatory purpose for section 22.16, so that
11. Walmart deposed the retired senator before trial, but
he had no recollection of the 1995 legislation or its purposes.
ROA.8612-24.

22
it could infer an unexpressed, “secret” discriminatory
purpose. That was reversible error. See id.
Walmart also references lobbyists’ statements
regarding section 22.16, but fails to note that none of
those statements were made in 1995 when section 22.16
was enacted. The statements were made by lobbyists
over a decade later, in 2009 and 2013. As the Fifth
Circuit has observed:
What happened after a statute was enacted
may be history and it may come from
members of the Congress, but it is not part
of the legislative history of the original
enactment.
….
When uttered five years later, it is mere
commentary.
Rogers v. Frito-Lay, Inc., 611 F.2d 1074, 1080, 1082 (5th
Cir. 1980); see Maine v. Taylor, 477 U.S. 131, 149-50
(1986).12
The actual point of section 22.16—at its inception—
was to create categories that lacked any purpose or
effect of treating similarly-situated in-state and out-ofstate firms differently. As the drafter of the legislation
testified:
12. This point is dispositive as an evidentiary matter, but
an additional dispositive point is that lobbyists’ remarks are
not evidence of a legislature’s intent.

23
And so we – we crafted a bill that said the
small owner – small stores with less than
35 owners can operate in Texas. That will
keep it at a human scale. But we prohibit
larger corporations, whether they be in-state
or out-of-state, from holding package store
permits. And that’s – my assignment was do
something that does not treat in-state and
out-of-state businesses differently, to shift the
focus from that to size, numbers of owners.
ROA.10820:11-18.
It is true that the catalyst for section 22.16 in 1995
was the Fifth Circuit’s striking down a durationalresidency requirement for certain alcohol permits in
1994. See Cooper v. McBeath, 11 F.3d 547, 555-56 (5th
Cir. 1994). However, as this Court has recently held,
federal courts cannot presume that a legislature’s
goal was to act in violation of the Constitution, but
rather must presume that the legislature’s goal was to
comply with the Constitution, in this case developing
a new, constitutional means of accomplishing Texas’s
goals of liquor regulation. See Abbott v. Perez, 138 S.
Ct. 2305, 2324-26 (2018) (placing burden on plaintiff
challenging a 2013 legislative act to “show that the
2013 Legislature acted with invidious intent” rather
than rely on some “discriminatory taint” from prior
sessions). So long as a constitutional motive could be
discerned,13 the district court was not at liberty to
infer an unexpressed unconstitutional motive. See
13. Indeed, the only expressed motives for section 22.16
before the Legislature were constitutional ones.

24
Trump v. Hawaii, 138 S. Ct. 2392, 2420-21 (2018) (“But
because there is persuasive evidence that the [law]
has a legitimate grounding … we must accept that
independent justification.”). Otherwise, every legislative
response to a court ruling could be struck down simply
because it was done in response to the ruling. See WalMart, 945 F.3d at 218.
The Fifth Circuit was right to reject the district
court’s flawed finding of the Texas Legislature’s
supposed, secret motives in 1995. In actuality, once
the correct presumption is applied, the legislative
history reveals no intent, secret or otherwise, by the
Texas Legislature to discriminate against out-of-state
interests when it enacted the residence-neutral public
corporation ban at section 22.16.
CONCLUSION
The petition for a writ of certiorari should be
denied. The Fifth Circuit meticulously adhered to this
Court’s dormant Commerce Clause precedent. The
Fifth Circuit rightly held that Texas Alcoholic Beverage
Code section 22.16 does not discriminate facially or by
effect, and it remanded to the district court on the issue
of discriminatory purpose due to the district court’s
errors in relying on incompetent evidence in making
its finding as to legislative purpose.
The district court found no discriminatory effect;
the Fifth Circuit panel unanimously agreed; and no
judge on the en banc Fifth Circuit voted to rehear the
panel decision. As every judge below agreed, the Texas
law at issue has no discriminatory effect on interstate
commerce.

25
The facts in this case could hardly be more different
from those in Tennessee Wine. Here, all parties agree the
state statute is not facially discriminatory, both lower
courts concluded that the statute does not discriminate
by effect as a matter of fact and law, and the parties
submitted detailed evidence (including expert witness
testimony) to prove that the state statute has the realworld effect of moderating liquor consumption with
its negative externalities, including by raising liquor
prices, reducing liquor accessibility, and reducing liquor
purchasing convenience.
This case does not implicate the principle articulated
in Tennessee Wine that deals with whether a facially
discriminatory state statute can survive under the
Twenty-First Amendment, and does not merit review
by this Court.
			

Respectfully submitted,
G. A lan Waldrop
Counsel of Record
Ryan D. V. Greene
Terrill & Waldrop
810 West 10th Street
Austin, Texas 78701
(512) 474-9100
awaldrop@terrillwaldrop.com
Counsel for Respondent Texas
Package Stores Association, Inc.

APPENDIX

1a
APPENDIX A — Appendix
EXHIBITAI-38, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BEVERAGE COMMISSION ET AL.,
CASE 1:15-CV-00134-RP, FILED JUNE 9, 2017

2a
APPENDIX B — Appendix
EXHIBITAI-39, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BEVERAGE COMMISSION ET AL.,
CASE 1:15-CV-00134-RP, FILED JUNE 9, 2017

3a
APPENDIX C — Appendix
EXHIBITAI-41, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BEVERAGE COMMISSION ET AL.,
CASE 1:15-CV-00134-RP, FILED JUNE 9, 2017

4a
APPENDIX D — Appendix
EXHIBITAI-43, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BEVERAGE COMMISSION ET AL.,
CASE 1:15-CV-00134-RP, FILED JUNE 9, 2017

5a
APPENDIX E — Appendix
EXHIBITAI-54, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BEVERAGE COMMISSION ET AL.,
CASE 1:15-CV-00134-RP, FILED JUNE 9, 2017

6a
APPENDIX F — Appendix
EXHIBITAI-72, WAL-MART
STORES, INC. ET AL. V. TEXAS ALCOHOLIC
BEVERAGE COMMISSION ET AL.,
CASE 1:15-CV-00134-RP, FILED JUNE 9, 2017

